REVIEW OF THE FEDERAL ACQUISITION SERVICE’S 

          CLIENT SUPPORT CENTER 

         NATIONAL CAPITAL REGION 

     REPORT NUMBER A090139/Q/W/P10005 

                June 4, 2010 

              u.s.   GENERAL SERVICES ADMINISTRATION
              Office of Inspector General




Date:	        June 4,2010

Reply to	    Marisa Roinestad
Attn of:	    Audit Manager, National Capital Region Field Audit Office (JA-W)

Subject:	     Review of the Federal Acquisition Service's Client Support Center ­
              National Capital Region
              Report Number A090139/QMJ/P1 0005

To:	         Alfonso J. Finley, Regional Commissioner, Federal Acquisition Service,
             National Capital Region (WQ)


Background

This report presents the results of the Office of Inspector General's audit of the Federal
Acquisition Service (FAS) Client Support Center in the National Capital Region (NCR
CSC). As directed in the National Defense Authorization Act for Fiscal Year 2008,
Public Law 110-181, the Inspectors General of the U.S. Department of Defense (000)
and General Services Administration (GSA) are to report whether GSA is complying
with laws and regulations applicable to 000 procurements.

Objective, Scope, and Methodology

Our objective was to assess whether the policies, procedures, and internal controls of
the NCR CSC are administered in a manner compliant with the Federal Acquisition
Regulation (FAR) and 000 procurement requirements.

To accomplish our objective, we analyzed 2 stratified random samples of procurement
actions for services greater than $100,000 executed between June 1, 2008 and March
31, 2009 and April 1, 2009 and September 30, 2009, respectively. For those same time
periods, we also analyzed 2 judgmental samples of modifications placed against
existing procurement actions. For the NCR CSC, our samples included 16 new awards
valued at $67.3 million and 4 modifications to existing orders valued at $31.4 million.

We conducted the audit from July 2009 through March 2010 in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


                           7th & D Streets, SW, Washington, DC 20407

                           F,d'ml R,cyd;ng Progmm   G   P<inted on R,cyd,d Pap"
Results of Audit

Overall, we found the NCR CSC compliant with the FAR and DoD procurement
requirements 1 . We noted that the Region has implemented national controls to improve
its overall contracting practices. However, we identified minor deficiencies that present
an opportunity for improvement in the task order award and administration processes,
as well as in file documentation.

Minor Deficiencies – Task Order Award and Administration

During our review, we identified instances of improper task order award and
administration practices, most of which were isolated, including:

    •	 Four instances of inadequate best value determinations. The best value
       determinations were inadequate because either it could not be determined how
       price reasonableness was established or the total price of the task order was not
       fully evaluated. Additionally, there was one instance in which the indirect
       handling rate applied to Other Direct Costs was not evaluated as part of the total
       price. Per FAR 8.405-2, the ordering activity should determine that the total price
       of an order is reasonable and should also document how price reasonableness
       was determined. To ensure that best value determinations are adequate and
       that price reasonableness is achieved, the NCR CSC should fully evaluate and
       document the establishment of price reasonableness for each task order.

    •	 Two instances of proposed labor rates not in line with solicitation requirements.
       In one instance, contractor-site rates were accepted and used for government-
       site work and in the other instance, the proposed labor rates were above the
       established schedule rates. In accordance with FAR 8.404, schedule rates are
       already determined to be fair and reasonable by GSA. Therefore, in using rates
       above schedule rates, there is no assurance the price is fair and reasonable.
       The NCR CSC should ensure that all price proposals are evaluated thoroughly
       and that proposed labor rates are compared to negotiated contract rates.

    •	 Two instances in which the subcontractor versus prime labor analyses were in
       conflict with the contractors’ proposals. FAR 52.219-14 states that at least 50
       percent of the cost of contract performance incurred for personnel shall be
       expended by employees of the prime contractor. 13 CFR 124.510 requires an
       8(a) participant to demonstrate semiannually that it has performed over 50
       percent of total contract work. The prime contractor submitted to FAS an
       analysis of subcontractor versus prime labor. The contracting officer accepted
       this analysis in monitoring compliance with FAR. The NCR CSC needs to ensure


1
  For the purposes of this audit report, we will be reporting on the issues that have been determined to be
within the responsibility of FAS. The DoD Office of Inspector General will be reporting on those issues
that are attributable to the DoD under separate cover.


                                                     2

      the accuracy of these labor analyses to ensure the FAR requirement is met upon
      contract completion.

   •	 Two instances in which Quality Assurance Surveillance Plans (QASPs) were not
      prepared. In accordance with FAR 46.401, a QASP should be prepared in
      conjunction with the Statement of Work (SOW) and incorporated into the task
      order file to assure that the government receives the services for which it has
      paid. To ensure proper surveillance of task order performance, the NCR CSC
      needs to ensure that QASPs are completed timely for all task orders.

   •	 One instance of not evaluating proposals in accordance with the evaluation
      factors stated in the SOW. According to FAR 8.405-2(d), the ordering activity
      shall evaluate all proposals using the evaluation criteria provided to the
      contractors. In order to ensure that all contractors’ bid proposals are fairly
      evaluated based upon previously stated criteria, the NCR CSC should use the
      evaluation factors outlined in the solicitation.

Minor Deficiencies – File Documentation

During our review, we also noted isolated instances of inadequate file documentation,
including:

   •	 One instance of conflicting information in the Acquisition Plan.

   •	 Five instances of inadequate Price Negotiation Memorandums.                 These
      inadequacies include inaccurate information, late preparation, and lack of detail.

   •	 Four instances in which the award document or SOW contained inaccurate
      information or was missing pertinent information.

In accordance with FAR 4.8, the documentation in the files shall contain all contractual
actions and shall be sufficient to constitute a complete history of the transaction. In an
effort to document and fully support all contracting actions taken on a specific task, the
NCR CSC needs to ensure that contract files contain all required documentation.

Management Comments

On May 28, 2010, the Regional Commissioner, Federal Acquisition Service, National
Capital Region concurred with this report. Management’s written comments are
included in their entirety as Appendix A.

Internal Controls

We assessed the internal controls relevant to the NCR CSC procurements to assure
that they were made in accordance with the FAR, DoD procurement requirements, and



                                            3

the terms and conditions of the contracts utilized. The NCR CSC needs to continue its
commitment to effective controls over procurement processes.

If you have any questions regarding this report, please contact me at (202) 260-6490.

 iM/'/~       ().. fh·~~
Marisa Roinestad
Audit Manager
National Capital Region Field Audit Office

Attachments




                                             4

REVIEW OF FEDERAL ACQUISITION SERVICE’S 

        CLIENT SUPPORT CENTER 

       NATIONAL CAPITAL REGION 

   REPORT NUMBER A090139/Q/W/P10005 


  APPENDIX A – MANAGEMENT COMMENTS
 





                   5

             REVIEW OF FEDERAL ACQUISITION SERVICE’S 

                     CLIENT SUPPORT CENTER 

                    NATIONAL CAPITAL REGION 

                REPORT NUMBER A090139/Q/W/P10005 


                 APPENDIX B – REPORT DISTRIBUTION



Regional Commissioner, Federal Acquisition Service, National Capital Region (QW) 


                            Acting Commissioner, Federal Acquisition Service (Q) 


                                          Internal Control and Audit Division (BEI) 


                                      Assistant Inspector General for Auditing (JA) 


                            Director, Audit Planning, Policy, and Operations (JAO) 


                                 Assistant Inspector General for Investigations (JI) 


                  Deputy Assistant Inspector General for Acquisition Audits (JA-A) 





                                     6

